<html>
<title> - A REVIEW OF THE PERFORMANCE OF THE VETERANS RETRAINING ASSISTANCE PROGRAM (VRAP) AND THE HOMELESS VETERANS REINTEGRATION PROGRAM (HVRP)</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
   A REVIEW OF THE PERFORMANCE OF THE VETERANS RETRAINING ASSISTANCE 
 PROGRAM (VRAP) AND THE HOMELESS VETERANS REINTEGRATION PROGRAM (HVRP)

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, SEPTEMBER 12, 2013

                               __________

                           Serial No. 113-35

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
82-895                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4423342b04273137302c2128346a272b296a">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                      BILL FLORES, Texas, Chairman

JON RUNYAN, New Jersey               MARK TAKANO, California, Ranking 
MIKE COFFMAN, Colorado               Minority Member
PAUL COOK, California                JULIA BROWNLEY, California
BRAD R. WENSTRUP, Ohio               DINA TITUS, Nevada
                                     ANN M. KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           September 12, 2013

                                                                   Page

A Review Of The Performance Of The Veterans Retraining Assistance 
  Program (VRAP) And The Homeless Veterans Reintegration Program 
  (HVRP).........................................................     1

                           OPENING STATEMENTS

Hon. Bill Flores, Chairman, Subcommittee on Economic Opportunity 
  (EO)...........................................................     1
Hon. Mark Takano, Ranking Minority Member, Subcommittee on 
  Economic Opportunity (EO)......................................     2

                               WITNESSES

Curtis L. Coy, Deputy Under Secretary for Economic Opportunity, 
  Veterans Benefit Administration, U.S. Department of Veterans 
  Affairs........................................................     3
    Prepared Statement of Mr. Coy................................    15
    Accompanied by:

      MG Robert M. Worley, II, USAF (Ret.), Director, Education 
          Service, Veterans Benefit Administration, U.S. 
          Department of Veterans Affairs
Hon. Keith Kelly, Assistant Secretary of the Veterans Employment 
  and Training Service (VETS), U.S. Department of Labor..........     4
    Prepared Statement of Hon. Kelly.............................    16
    Accompanied by:

      Ms. Gerri Fiala, Deputy Assistant Secretary, Employment and 
          Training Administration (ETA), U.S. Department of Labor

                       STATEMENTS FOR THE RECORD

The National Coalition of Homeless Veterans......................    20
Easter Seals Inc.................................................    22


   A REVIEW OF THE PERFORMANCE OF THE VETERANS RETRAINING ASSISTANCE 
 PROGRAM (VRAP) AND THE HOMELESS VETERANS REINTEGRATION PROGRAM (HVRP)

                      Thursday, September 12, 2013

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. Bill Flores 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Flores, Runyan, Wenstrup, Takano, 
Brownley, Kirkpatrick.

           OPENING STATEMENT OF CHAIRMAN BILL FLORES

    Mr. Flores. Good morning. We are here today to gather 
information on the results of two very important employment 
related programs, the Homeless Veterans Reintegration Program, 
or HVRP, and the Veterans Retraining Assistance Program, or 
VRAP. Please note that I said that these are employment related 
programs. VRAP is intended to provide short-term retraining to 
unemployed veterans who are mid-career age. As of yesterday, 
VRAP data on VA's Web site showed that 138,162 veterans have 
applied for VRAP with VA approving 121,060 applications, and a 
total of 65,300 individuals are now enrolled in training. With 
two-thirds of the funded training slots now filled, I can call 
that a success and a congratulate VA for the yeoman's efforts 
to fill those positions. I also appreciate the state employment 
services efforts to get unemployed veterans into the VRAP 
system.
    But now comes the real challenge, and that is to take VRAP 
graduates and put them in jobs for which they have been 
trained. This important task will fall largely on the shoulders 
of the Veterans Employment and Training Service at the 
Department of Labor, and the DVOPs, and the LVERs as they fund 
in the state employments services through the Jobs for Veterans 
state grant program. We have been hearing for months that a 
major barrier to employment for veterans is the so-called 
skills gap. At this time, now we have thousands of veterans 
that have been given training for in-demand occupations that 
can help fill the skills gap, and it is up to VETS to point 
these veterans in the right direction and to get the veterans 
back to work.
    During our last hearing on VRAP, we heard that there were 
data sharing issues between VA and VETS, and I want to hear 
whether those issues have been solved. I also want to hear from 
VETS how they are going to monitor the states' efforts to place 
VRAP participants, in whom we have invested nearly $19,000 each 
in an effort to give them skills relevant to today's job 
market.
    Regarding HVRP, I hope that we hear that the program's 
performance is meeting the goals set by VETS. I believe that we 
have been providing about $40 million per year recently to this 
program. And many homeless veterans, especially those with 
children, are sometimes difficult to place. Your grantees, as a 
result, must find ways to successfully serve this vulnerable 
population.
    One final thing before I yield to the distinguished Ranking 
Member, and that is to express my appreciation that in the 
future representatives from VETS will be the experts who will 
testify on programs authorized under Title 38. For example, 
VETS should have a program manager for both VRAP and HVRP who 
would accompany Secretary Kelly here today, not the ETA. In 
saying that, I mean no disrespect to the ETA staff who are here 
today, but if it is a Title 38 program or requirement, I think 
we should hold VETS, not ETA or any other DOL entity, 
responsible.
    Now as a housekeeping note, I would let you know that we 
are going to have votes that are going to be called between 
10:15 to 10:30. We will suspend this hearing for about 30 to 45 
minutes and then we will resume immediately after those votes 
have concluded.
    I now recognize the distinguished Ranking Member Mr. Takano 
for any opening remarks he may have.

             OPENING STATEMENT OF HON. MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman, and good morning. I 
would like to thank our witnesses for taking the time to 
testify and answer our questions this morning. We look forward 
to hearing from both agencies on their efforts to help veterans 
with these two very important programs. We are very interested 
in the implementation and the progress that has been made by 
VRAP and where we are with regards to outreach and recruitment.
    VRAP is almost two years old and is paying for education 
and training for 63,000 eligible veterans with the hope of 
raising that to 90,000 by the end of the fiscal year. Our 
questions today will center on how we can ensure that this 
strong beginning continues without interruption and without 
losing the money set aside for this program.
    We are also seeking an update on the Homeless Veterans 
Reintegration Program, or HVRP, which offers great services to 
homeless veterans. We would like to see how the grantees are 
performing and where they are located geographically.
    I want to take a moment to highlight the efforts of my 
colleague Representative Brownley, the Ranking Member of the 
Health Subcommittee, and thank her for the enormous amount of 
work she put into a package of legislation reauthorizing 
several vital programs that provide help and support for 
homeless veterans. This bill is H.R. 2485 entitles the Helping 
Homeless Veterans Act. We welcome all efforts from our Members 
that seek to help our most vulnerable veterans.
    Thank you again, Mr. Chairman, and I yield back.
    Mr. Flores. Thank you, Mr. Takano. Today's only panel 
consists of representatives from the VA and the Department of 
Labor. I welcome back Mr. Curt Coy, VA's Deputy Under Secretary 
for Economic Opportunity, who is accompanied by Rob Worley, the 
Director of VA's Education Service. Also Mr. Keith Kelly. 
Secretary Kelly is accompanied by Ms. Gerri Fiala of the 
Employment and Training Administration. Welcome to each of you, 
and let us begin with Mr. Coy.

  STATEMENTS OF MR. CURTIS L. COY, DEPUTY UNDER SECRETARY FOR 
  ECONOMIC OPPORTUNITY, VETERANS BENEFIT ADMINISTRATION, U.S. 
  DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY MG ROBERT M. 
 WORLEY II USAF (RET.), DIRECTOR, EDUCATION SERVICES, VETERANS 
 BENEFIT ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
   AND THE HONORABLE KEITH KELLY, ASSISTANT SECRETARY OF THE 
    VETERANS EMPLOYMENT AND TRAINING SERVICES (VETS), U.S. 
  DEPARTMENT OF LABOR; ACCOMPANIED BY MS. GERRI FIALA, DEPUTY 
  ASSISTANT SECRETARY, EMPLOYMENT AND TRAINING ADMINISTRATION 
                (ETA), U.S. DEPARTMENT OF LABOR

                   STATEMENT OF CURTIS L. COY

    Mr. Coy. Thank you, sir. Good morning, Mr. Chairman, 
Ranking Member Takano, and other Members of the Subcommittee. I 
am pleased to join you this morning to review the performance 
of the Veterans Retraining Assistance Program, and to discuss 
the collaboration between the Department of Veterans Affairs 
and the Department of Labor in our efforts to ensure successful 
transitions from training to employment. As you mentioned, 
accompanying me this morning is Mr. Robert Worley, our Director 
of Education Service.
    VA is absolutely committed to ensuring the economic and 
meaningful employment opportunities of our veterans. VRAP 
provides veterans with the opportunity to build a strong 
foundation of training on which to build their careers. VRAP 
helps retrain those veterans hit hardest by unemployment, 
veterans ages 35 to 60. According to the Bureau of Labor 
statistics, approximately 55 percent of reported unemployed 
veterans fall into this cohort.
    In just under six months of the law being enacted, VA and 
DOL collaboratively leveraged existing IT systems to begin 
accepting applications ahead of schedule on May 15, 2012, to 
meet the statutory program start date of July 1, 2012. VA 
received over 45,000 applications in just the first four months 
the application was available. As of this week, as you 
mentioned, VA has received more than 138,000 applications and 
issued over 121,000 certificates of eligibility to veterans. 
Congress has authorized and the VA has provided over $447 
million in program benefits directed to more than 65,000 
veterans.
    Based on current application rates, we anticipate about 
141,000 applications by the statutory end date of October 1, 
2013. By the way, we continued to receive applications, just 
this last week of about 1,000 applications a week, sir.
    VA expects to reach the 99,000th participant sometime in 
the March/April timeframe of 2014, again based purely on 
straight mathematical projections. This success is the result 
of a significant outreach effort by VA and partner agencies. 
Prior to the inception of VRAP, VA entered into a memorandum of 
understanding with DOL to ensure veterans have a smooth 
transition from training to employment. Each week, VA compiles 
a report for DOL with the latest information we have concerning 
VRAP applicants, and we are nearing the completion of a new 
agreement to increase the level of data shared between our two 
departments.
    VA is also working with DOL to receive employment outcomes 
as it becomes available, and we defer to DOL to discuss the 
employment services offered through VRAP.
    Our outreach strategy and work has been extremely 
successful, as evidenced by the over 138,000 applications as of 
this week. At this point, more importantly, we have been 
working hard to communicate to those veterans who have received 
a certificate of eligibility, but have not begun to use their 
VRAP benefits. We have sent three separate targeted personal 
email notes to those veterans. The most recent was just this 
last week telling them that we will no longer be authorized to 
accept applications at the end of this month, and end VRAP 
benefits payments in March of 2014, just six months away. We 
want to make sure that all eligible veterans are able to take 
full advantage of their benefits.
    VA recognizes the great opportunities veterans have by way 
of utilizing VRAP and we support pending legislation in the 
House and Senate to extend the program. We look forward to 
continuing our work with DOL to ensure veterans pursuing their 
training goals have a seamless transition into their chosen 
field of employment.
    Mr. Chairman, this concludes my statement. Thank you for 
the opportunity to appear before you today. We would be pleased 
to respond to any questions you or other Members of the 
Committee may have.

    [The prepared statement of Curtis L. Coy appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Coy.
    Mr. Coy. Yes, sir.
    Mr. Flores. Mr. Kelly? You have five minutes.

                 STATEMENT OF HON. KEITH KELLY

    Mr. Kelly. Thank you. Good morning, Chairman Flores, and 
Ranking Member Takano, and distinguished Members of the 
Committee. Thank you for the opportunity to participate in 
today's hearing and for accepting the department's late 
submission of its testimony. My name is Keith Kelly and I am 
honored to serve as the Assistant Secretary of the Veterans 
Employment and Training Service at the Department of Labor. I 
am accompanied today by Gerri Fiala, Deputy Assistant Secretary 
from our sister agency of the department's Employment and 
Training Administration.
    DOL is committed to working with this Committee to ensure 
that our Nation's veterans have the employment support and the 
assistance they need to succeed in civilian life. As I 
discussed in my written statement, the Veterans Employment and 
Training Assistance Program and the Homeless Veterans 
Reintegration Program are important aspects of the department's 
work on behalf of veterans and their families. I will use my 
time today to highlight some of the department's efforts to 
implement and administer these programs.
    As many of you know, the Department of Labor has been 
working diligently with the VA and others to implement the 
Veterans Retraining Assistance Program, or VRAP as it is known, 
by several things: conducting outreach; developing guidance; 
identifying high demand occupations; determining applicants' 
initial eligibility; and providing services to veterans before, 
during, and after they participate in the program. In addition, 
the department contacts participants directly via email to 
provide information on employment services and encourages 
participants to contact their local American Job Centers to 
begin those job searches. Additionally as well, once the VA 
notifies the department that a participant has exited the VRAP 
program, the Department of Labor provides that individual's 
contact and related information to the relevant state workforce 
agency.
    States must then reach out to participants to offer them 
employment assistance and report the results of their outreach.
    The Department of Labor's responsibilities under VRAP have 
created some challenges for the department which I discuss in 
greater detail in my statement for the record. But among them, 
the Department of Labor has had to reengineer or remodify 
current data reporting systems and obtain approval for new data 
collections. While data is already being exchanged right now, 
the Department of Labor and VA are in the process of updating 
this memorandum of agreement to reflect an interagency data 
transfer agreement between the two agencies. DOL is also 
working with the states and territories to develop data 
transfer agreements as well as to further facilitate the 
process.
    Next, I would like to discuss another important employment 
and training program, and that is assisting the Homeless 
Veterans Reintegration Program. Through HVRP, DOL grantees 
assist homeless veterans in obtaining meaningful and 
sustainable employment. HVRP is employment focused and each 
participant receives customized employment and training 
services to address his or her specific barriers to employment. 
This client-centric hands on approach has successfully helped 
place thousands of previously homeless veterans on the path of 
self-sufficiency.
    Within the umbrella of HVRP, the department funds programs 
designated to address difficult to serve subpopulations of 
homeless veterans, including the homeless female veterans, and 
veterans with families, and we have competitive grants for that 
program as well as the Incarcerated Veterans Transition 
Assistance Program. As the Committee is aware, the incarcerated 
veterans demonstration grants were authorized as a pilot 
program and are designed to support those incarcerated veterans 
who are at risk of homelessness by providing referral and 
career counseling services, job training, placement assistance, 
and other benefits.
    While my written statement goes into much detail about the 
department's procedures, selecting grant recipients, as well as 
measuring the performance, I will just highlight that HVRP 
funds are awarded to eligible applicants through a competitive 
grant process during which there is a rigorous review. 
Similarly, once grantees are accepted to HVRP, the department 
works closely with them to ensure that they meet all 
performance outcomes to ensure the success of that program.
    The department does believe that the HVRP is an important 
and necessary program and does look forward to working with 
this Committee to ensure continued success of it.
    In conclusion, the Department of Labor will continue to 
work diligently with this Subcommittee and others on the 
Committee to ensure that veterans and their families have the 
resources and the support they need to succeed in the civilian 
workforce.
    Mr. Chairman and Members of the Subcommittee, Ranking 
Member Takano, this does conclude my statement. Thank you again 
for the opportunity to testify before you today. I will be 
happy to answer questions. Thank you.

    [The prepared statement of Hon. Keith Kelly appears in the 
Appendix]

    Mr. Flores. I thank the panel, and I thank each of you for 
what you do to help take care of our Nation's veterans. And I 
will begin with a few minutes of questioning.
    Secretary Coy and Secretary Kelly, this question is for 
each of you. Last November when you testified before this 
Subcommittee, a Labor witness testified that there was a glitch 
in the data sharing agreement that would prevent tracking the 
success of VRAP participants. It is our understanding that this 
agreement has not been signed and is still lost in the 
bureaucratic shuffle for nearly one year after that issues was 
identified, and almost two years since the passage of the VRAP 
legislation. Now Secretary Kelly, I think you touched on that 
in your testimony. Let me start with Secretary Coy first. Mr. 
Coy, does the VA have any problem providing the data to Labor? 
And have you provided Labor with an approved agreement? And if 
so, when did that occur?
    Mr. Coy. Mr. Chairman, first off, the straightforward 
answer is no, we have no problem providing that information to 
the Department of Labor. Since the inception of the program way 
back in November of 2011 when the program was signed into law, 
we started working with DOL to put together what kind of 
information they needed. Since that time, we have been sharing 
data with respect to names and addresses, and all of the 
information necessary for DOL to, in fact, take care of the 
employment end of it from their perspective.
    What this data sharing agreement does is provide the social 
security numbers to DOL and as well sort of set out the list of 
priorities and the rules of the road, if you will. We have been 
working vigorously back and forth with our colleagues at DOL. 
The agreement now is back in our shop. We got it back from DOL 
about a week or so ago. We have sent it to our general counsel. 
We expect it to be signed by shortly.
    Mr. Flores. Okay. And just to be clear, I think you said 
that you are providing social security numbers to----
    Mr. Coy. No, sir. We have, providing all of the 
information, absent social security numbers.
    Mr. Flores. Okay. Mr. Kelly, since VA is willing to provide 
the data, what is the problem at Labor? And would the lack of a 
social security number hamper the tracking? And where, I guess 
the agreement now is over on their side so it is out of your 
hands. Do you expect that it would have a quick turnaround once 
it comes back? So really two questions. What is the problem, I 
mean, are you hampered by not having the social security 
numbers? And number two, how quick would the turnaround be once 
you get it back from VA?
    Mr. Kelly. Thank you, Mr. Chairman. That is a good 
question. I do want to emphasize on the front-end right now, we 
are happy to report that the critical information that is 
needed to run this program we are receiving, and that is being 
passed back and forth, and we are already receiving reports. 
The enhancement of the program with regard to the social 
security numbers, the department needs to develop a system to 
protect the integrity of the social security numbers within the 
department. We do not have that at the present time to receive 
and protect the integrity and anonymity of the social security 
numbers. That is being finalized and being there. But I do want 
to emphasize, we are receiving the reports, the critical data 
needed to pass back and forth between us and VA with the 
program that is ongoing right now. In fact, we have several 
states that have already sent in their preliminary data.
    The social security number will help enhance in the long-
term haul with regards to the state workforce agencies, as they 
do with their other programs, to do the measurements going back 
and forth with the common thing. We have to have the 
development of the IT system to accept that.
    Mr. Flores. Thank you. Coming back out of the weeds for a 
minute and going back to the 50,000-foot level, Secretary 
Kelly, how would you, give us a description of the results of 
the VRAP program from a VETS perspective?
    Mr. Kelly. From the VETS perspective, the VRAP program, 
thank you, Mr. Chairman, it is a good question. From the VETS 
perspective, it does appear to me we are targeting an unusual 
audience out there, a little bit older in age, that----
    Mr. Flores. I am sorry, I meant from the Veterans 
Employment and Training Services perspective.
    Mr. Kelly. Okay.
    Mr. Flores. Okay, sorry.
    Mr. Kelly. So----
    Mr. Flores. Go ahead.
    MR. Kelly. From the Veterans Employment and Training 
Perspective, we are working diligently with VA on this program 
and our sister agency in ETA, which does have the data tracking 
management system of where we are colocated in all of the 2,600 
American Job Centers for our DVOPs and LVERs to follow up. We 
have received out of, this is just beginning, there is a time 
lag that is necessary in all of these programs with regards to 
when you are going to get the information upon graduation, 
there is somebody completing a credentialing program, and the 
time lag to receive the wage and hour records to go forward, so 
we can go back against those particular service measurements. 
And I think we have things in place and on track to do that. It 
necessarily takes almost a year for somebody at the completion 
of a graduation, and at the time they offered to go into the 
program, they go through the training of whatever months up to 
a year that may be, and come out. We are anxious to share that 
and look at the results and see how well it has been.
    Mr. Flores. Okay. I thank the panel, and I now yield to 
Ranking Member Takano for five minutes.
    Mr. Takano. Mr. Coy, can you tell me, you are with Veterans 
Affairs, right?
    Mr. Coy. Yes, sir.
    Mr. Takano. What does the memorandum of understanding 
between the VA and the DOL encompass? Please help me understand 
what it covers?
    Mr. Coy. Absolutely. I do not have it here in front of me, 
but our data security people on both the VA side and the 
Department of Labor side. And what it does, it sort of sets out 
the rules of the road of how DOL can use this information, how 
we are to transmit it to DOL, and it provides the information, 
if you will, in terms of the VRAP applicants' information in 
terms of social security number, name, address, and so on and 
so forth.
    Mr. Takano. Okay. When veterans complete a program at a 
college or a technical school, how do they get referred to the 
Department of Labor and what services do they get?
    Mr. Coy. I will defer to our friends and colleagues at the 
Department of Labor. When we get information on a veteran who 
has either left the program or completed the program, we pass 
that information over to the Department of Labor and they reach 
out and contact each of those veterans. The Department of Labor 
has been extremely aggressive in terms of reaching out to 
veterans. As soon as a veteran receives a certificate of 
eligibility, we pass that information to DOL and they reach out 
to that veteran, basically saying congratulations, you know, 
you have got a COE, and here is our services, and so on.
    When there is a change in that veteran's status, in other 
words they have completed, they have dropped out, or whatever 
the reason is, we also notify Department of Labor and they 
reach out again. So it is a continuous loop with respect to 
reaching out to those veterans. With that, I will pass it to 
our colleagues at DOL.
    Mr. Kelly. Thank you, Representative Takano. With regards 
to when it gets passed back to the Department of Labor, and 
then the outreach goes back out to what I stated in my 
testimony, some of the reverse engineering to put information 
back out there. The Employment and Training Administration 
with, in conjunction with our DVOPs and LVERs, we make three-
time efforts to reach out there and continue to find these 
folks after they have graduated or after they have reached 
their certification and see where they are at on that. And we 
do have from a handful of states, it is very preliminary, some 
data that is coming in now upon that outreach efforts and how 
many desire more services from our department, or how many 
already found a job, and how many are still in the program and 
training. And there is no contacts back after several attempts 
to outreach. We have used emails. I think there was three or 
four email blasts that went out there, and telephone numbers to 
stay in touch with them. We think on the preliminary efforts 
from a few states that it appears to be working quite well.
    Mr. Takano. Can you tell me, which veterans are eligible? 
All veterans?
    Mr. Coy. It is unemployed veterans between the ages of 35 
and 60, cannot have a dishonorable discharge, cannot have any 
G.I. Bill benefits remaining to them. There are some other 
nuances but those are the biggies, if you will, that makes a 
veteran eligible for the program. Unemployed, 35 to 60, and 
have no G.I. Bill benefits. An interesting aside, of those who 
have not been approved for the program, about 75 percent of 
those folks who have not been approved, the reason they have 
not been approved is because they already have G.I. Bill 
benefits, if you will, in their account. We consider that a 
really good news story. We tell them go use your G.I. Bill 
benefits that you have now before you start using any VRAP 
benefits.
    Mr. Takano. Do you expect to fill all the slots before the 
VRAP expiration date on October 1?
    Mr. Coy. It is a good question and it is a challenge. Right 
now we are at 65,000. As I indicated in my oral statement, if 
we just did the math in terms of the graph of how many we were 
receiving, how many COEs, and how many people are enrolling, at 
the same rate we would expect to reach 99,000 about March or 
April timeframe. But I would caveat that, Congressman, by 
saying that for example, if you began your VRAP training in 
January, you are only going to get three months of VRAP 
benefits. So one would expect, anyway, that a veteran who may 
have that certificate of eligibility may in fact kind of go, I 
am only going to be able to use three months, maybe I will not 
begin training. So that is going to be the real outlier, is 
trying to see as we get down toward the end of the program how 
many people are going to continue to enroll knowing full well 
that they are not going to have all the benefits coming to 
them.
    Mr. Takano. Mr. Chairman, my time is up.
    Mr. Flores. Okay. Thank you, Takano. Mr. Wenstrup, you are 
recognized for five minutes.
    Mr. Wenstrup. Thank you, Mr. Chairman. Mr. Coy, I have a 
question. I appreciate that the program focuses on the high 
demand career fields. I think that that is important to the 
success of the program, obviously, Simple question, do you have 
any problem finding enough community colleges and vocational 
schools that provide that type of education in high demand 
career fields?
    Mr. Coy. Thank you, Congressman. When we look at the high 
demand occupations, there is about 211 of them. And so we have 
not heard from veterans that they are having difficulty finding 
a school. I think that the challenge we get from many veterans 
is the requirement in the statute to be a two-year school or 
community college, we originally used just community college, 
we converted that, and we looked at it, and are now accepting 
VRAP students into two-year schools. And that was early on in 
the program we had to make some adjustments with respect to 
that. But it, in some cases, has in fact been a challenge for 
veterans to say, I want to go to this university. So for 
example, they may live across the street from a four-year 
university, but live 25-miles from a two-year community college 
or technical school. And they are being told you cannot go 
across the street, you have to go to a community college. And 
that is in the statute.
    Mr. Wenstrup. Thank you. I yield back.
    Mr. Coy. Yes, sir.
    Mr. Flores. Thank you, Mr. Wenstrup. Ms. Brownley, you are 
recognized for five minutes.
    Ms. Brownley. Thank you, Mr. Chair. And thank you to my 
colleague, Mr. Takano, for highlighting a bill that I 
introduced to extend the authorization for a year for several 
of the homeless programs. And actually, I think many of the 
VSOs would prefer to see that extension even longer than a 
year. But I was hoping that perhaps Mr. Kelly, you might be 
able to comment on, you know, if these programs are not 
reauthorized what you believe the impact is? And I had a couple 
of specific programs, you know, sort of under that umbrella of 
homeless programs. One around the Homeless Female Veteran 
Program and how successful that program is. And also I am 
curious to know how many veterans have gone through the 
Incarcerated Veteran Transition Program and how successful you 
think that program is also? And maybe the Department of Labor 
has something----
    Mr. Kelly. Thank you, Madam Congresswoman. With regards to 
the Homeless Veterans Program, from our views and our data it 
is very successful. It has got about a 65 or 66 percent success 
rate of people who have hit the bottom to get them back into 
the economy. They are coming in at above minimum wages. They 
are getting okay salaries and that. And probably most 
importantly, is when you measure it out at six months, are they 
still there. I might add I just was up in Maryland, there is 
quite a model program up there for homeless veterans where they 
actually house people there. And the success rates of going 
through the process, they can keep 200 on campus at one time. 
And I visited about two weeks ago. And so when you see it on 
the ground what is going on out there, they have really got a 
high success rate. And I guess for lack of a better work have 
given these people their dignity back. And they are very proud 
of that. And it is very targeted, at least the job search and 
some of these other things, the training. And it is kind of 
tailor-made for each one and what their issues are, and get 
back in that. But I do have to say I have visited now, this is 
the third homeless veteran training program or homeless veteran 
facility. And the data support is very high.
    I will note, you mentioned on the female veterans, we are 
seeing a growth in that area, the female homeless veterans is 
growing. And this particular grantee would love to sit there 
and try to see if they can get more facilities, especially for 
women, so they can keep in touch with their children, or with 
children. And so we are seeing it growing in that particular 
area and recognize that there is certainly more work to be done 
on it. But those that participate and that are in the program, 
for the dollar cost, it is a pretty high success rate.
    Ms. Brownley. And the incarcerated transition program?
    Mr. Kelly. Thank you, Congresswoman. It is just about the 
same data on that, about a 60 percent success rate on those in 
the incarcerated program as well. And to capture these people, 
if that is the best word, before they get out on the street, 
and make sure that they can make this transition. The success 
rate and the employment rate is, a little lower on the 
employment rate and the employment salary. But the success rate 
is again about 60 or 65 percent. I guess this is a case where 
you have a helping hand to get somebody to make that 
transition.
    So yes, we are supportive in the Department of Labor for 
the continuation. You know, the incarcerated program is a pilot 
program out here with a hard stop on September 30th. And the 
homeless veteran, including the female one, we are supportive 
of the continuation of both of them. The cost benefit certainly 
appears to support it.
    Ms. Brownley. So in terms of our homeless population among 
veterans, it seems as though what you are saying in many cases, 
we are improving and these programs are effective. I think it 
is fair to say at the same time, we still have a growing 
population of homeless vets. So it is, I think there is 
probably still more that needs to be done. I am not sure that, 
obviously 60 is not good enough, 100 percent is what we are 
looking for. And the growing population of homeless and how we 
mitigate that and make sure that we can begin to decrease that 
population that is transitioning in a homeless status.
    Mr. Kelly. And do you want me to comment on that as well? 
Or no? Thank you.
    Ms. Brownley. Well I have 17 more seconds and I will take 
the liberty to use them.
    Mr. Kelly. Well yes, my comment would be, yes, we are 
seeing the demographics change some on that now. On the 
homeless veterans it is primarily the Vietnam Era veterans, my 
generation of veterans. Now we are seeing some of the younger 
veterans, and particularly the women veterans and their issues 
is what the department is trying to address, women veterans' 
issues broadly. It is growing and it is concerning. And we are 
fighting it. The goal of the President is to have no homeless 
veterans by 2015.
    Ms. Brownley. Thank you, Mr. Chair.
    Mr. Flores. Thank you, Ms. Brownley. Mr. Runyan, you are 
recognized for five minutes. Just as a note, votes have been 
called. So we will let Mr. Runyan finish his questions and then 
we will suspend and resume. I will advise the Members that the 
Capitol Police have suggested that we take the tunnel this 
morning because there is a large demonstration at Independence 
and New Jersey. So Mr. Runyan, you are recognized for five 
minutes.
    Mr. Runyan. Thank you, Mr. Chairman. Mr. Kelly, about 
30,000 of the 65,000 people who have enrolled are no longer in 
the training. How many of those have been placed in jobs? Do 
you have any metrics on this?
    MR. Kelly. Thank you, Congressman. That is a very good 
question. And I stated in my testimony, and I am prepared to 
even go into further detail here, the time lag when somebody 
enrolls, signs up for the program, enrolls and takes the 
training, depending on the length of the training, that they 
wound up to a year, or an eight-week, or a six-month training, 
the time they leave that, and then the time that they go out 
there, there is a time lag necessarily as with all the 
programs, when the wage and hour records that they do become 
employed, or they do get involved. And so the time lag, that 
time to measure that is going to be necessarily, really if you 
look at here somebody going in in the spring, it is almost, it 
is 11 months to a year out that that will, we will get the 
data, the information on how successful they have been in 
becoming employed. The outreach is going on. That is going on. 
The data to come back with hard data to verify it, I think I 
indicated we have three states that have got preliminary data, 
Texas, Kansas, and a northeastern state, I think it is Maine or 
New Hampshire. So the data is just beginning to trickle in now 
on some of those that may have at the very onset of the best 
case scenario got into the program and came out. I would be 
most happy that Gerri here, who their agency manages that whole 
data system program, probably can give you a more accurate 
succinct answer.
    Ms. Fiala. I will be very quick, but just the third state 
is Kansas. That we have some very, very preliminary outreach 
information on. And it is a very small sample size. It is about 
a little over 300 people, and it is outreach, remember, not 
outcomes. But of that very small sample, about 55 percent 
responded to the queries of the states and to encourage them to 
contact the, for the VRAP program, to contact if they needed 
employment assistance. Fifty percent of the people that were 
contacted and responded to the request said that they needed 
assistance, they took the offer of assistance. Twenty percent 
of them said, you know, we already have jobs. We do not need 
assistance. And 30 percent declined any further workforce 
services. But this is a very small, informal sample just of the 
outreach.
    In terms of, I just want to reinforce what Assistance 
Secretary Kelly said. There is about a year lag between the 
person who exits the program, whether they have completed or 
dropped out of the program, and us getting the first outcome 
data. We use the same measures for the VRAP program that we use 
for other Department of Labor programs. And we also, this data 
is reported through employers on their wage records. This is a 
cost-effective way of obtaining information data on three 
outcomes that we are tracking. We track whether or not they 
entered the job. We track whether they were retained in that 
job at six months. And we track at, what was the average of the 
six month's income for them. And so 90 days after they have had 
their last service, they are considered to exit the system. And 
it is at that point that they enter into the outcome reporting 
system. And remember, there is a time lag for unemployment 
insurance wage records to be reported. So we will have outcome 
data more, we will have some minimum data for perhaps people 
who dropped out or had a very short training program and 
entered last August at the end of this year. And that outcome 
data will continue to track actually through 2015.
    Mr. Runyan. Mr. Kelly, do you believe the authorization 
level for the homeless veterans reintegration program is 
appropriate?
    Mr. Kelly. Thank you, Congressman. You said the 
reauthorization----
    Mr. Runyan. The authorization level?
    Mr. Kelly. For the Homeless Veteran Reintegration Program, 
is it appropriate? Yes, I do.
    Mr. Runyan. If the funding was increased, do you believe 
that you would see a decrease in competition for grant funding, 
which would lead to a less successful program?
    Mr. Kelly. I did not catch the last part. If you could 
restate that, it would help me.
    Mr. Runyan. If the funding was increased----
    Mr. Kelly. Yes?
    Mr. Runyan. --do you believe it would decrease the 
competition for grant funding which would decrease, would make 
a less successful program?
    Mr. Kelly. Thank you, Congressman. If the funding was 
increased, there is more demand for the grants than there is 
supply of the money it will cover. So I, we have seen this in 
the last couple of years. The amount of money available for the 
grant program to go out has actually gone down several million 
dollars. So really the competition this last go round really 
got enhanced because there just was not the amount of money to 
take on any new programs out there. So long story short is that 
the demand still far outstrips the supply of some good grant 
applicants for the program.
    Mr. Runyan. Thank you. Chairman, I yield back.
    Mr. Flores. Thank you, Mr. Runyan. We have five minutes and 
39 seconds left to vote, 342 Members have not voted. So we are 
going to go ahead and recognize Ms. Kirkpatrick for five 
minutes for this first, to conclude this first round of 
questions.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman. You know, the 
fact that we have any veteran in this country who is homeless 
is not acceptable. And I thank the panel for being here today 
and testifying. But I have to tell you the statistics do not 
support your testimony. And let me explain that. In Arizona, 21 
percent of the homeless population are veterans. That means on 
any given night 2,213 people, veterans who have served our 
country, are sleeping in the city parks. And I have to tell 
you, when I drive by those parks, and I look out, and I realize 
that one in five are veterans, here is what I see. They do not 
have an address. They do not have email. Many of them do not 
have cell phones. How are you communicating with those homeless 
veterans, which I really believe are the core of homelessness, 
when you testify today that communications are by email? That 
is not getting to them. So I would like to hear from the 
Department of Labor and also the VA, how are you reaching those 
veterans who are sleeping in the city parks every night with no 
other form or communication?
    Mr. Kelly. Thank you, Congresswoman. I want to clarify 
something. When I said we are contacting by email, I was really 
referring to the VRAP program, not the Homeless Veteran 
program. Because you are absolutely correct. They do not have 
an email address, or very likely may not have one. And we fully 
agree with you that it is terrible that this many veterans 
would be homeless.
    And so in that, how do we do the outreach for the homeless 
veterans out there? You really have to go back and be networked 
with your local community. That is where it has got to come 
from. We cannot see it from here, exactly what is going on. And 
what I witnessed, I guess, in visiting two of these homeless 
sites, one in San Francisco and now this other one in 
Baltimore, they are really plugged in and with other Federal 
agencies and others, but really at the local level out there. 
They are the ones that knows what is going on out on the 
street, for lack of a better word. And so it has to come at 
that local community, government level. And then we can assist 
them then with the grants that we have and what not. But they 
are the ones that are out walking around the communities, under 
the bridges. As a matter of fact, at the one in Maryland, I 
think they stated that at certain times they take from the 
community, they have the working relationship with their city 
government, they take in surplus homeless people during, 
because they have the capacity, if they have the capacity, 
during some of the winter months. So it really does come down 
to the local community level, that that contact has to be made 
to do that. Through our American Job Centers and our DVOPs and 
LVERs, they are plugged into a system, that whole program. And 
then to put them and say here, here is a program at the Federal 
level that we may help in that. I hope that clarifies you on 
how to do it. Because you are right. They are not easy, if it 
is one in five sitting on a park bench, how do you find them 
and get hold of them to get them into the system.
    Mrs. Kirkpatrick. Mr. Chairman, let me just close with one 
comment. I hope that you will consider some innovative ways to 
reach these veterans. We recently had a stand down in my 
district. And I watched veterans who would not give their 
address, and I have to think that many of those did not have an 
address. But they are proud. You know, they are not going to go 
to those centers and ask for help. And so in a lot of ways, 
they are veterans who are off the grid. And so I just hope that 
you will consider some innovative ways to respectfully and with 
dignity reach those homeless vets who are just off the grid. 
And I will close with that. Thank you, Mr. Chairman.
    Mr. Kelly. Thank you.
    Mr. Flores. Thank you, Mrs. Kirkpatrick. I have polled the 
Members of the Subcommittee and we have concluded that we will 
be finished with the first round of questions. I would like to 
say this with respect to the submission of testimony. We had 
asked that the testimony be submitted by noon on Monday. 
Unfortunately we did not get Labor's until 5:01 yesterday. That 
made it difficult for me to be prepared for this meeting. So I 
would ask in the future that you all please honor our request 
with respect to timing.
    In closing, I want to thank all the Members for their 
attendance today. And I want our witnesses to know that the 
Subcommittee will continue to monitor the progress of the data 
sharing agreement for VRAP. And I would appreciate it if you 
all would work together to try to conclude that as quickly as 
possible. I was glad to hear that you had come up with interim 
measures to deal with the data sharing.
    Finally, I ask unanimous consent that all the Members have 
five legislative days in which to revise and extend their 
remarks and include any extraneous material on today's hearing 
topic. Hearing no objection, so ordered. This hearing is now 
adjourned. Thank you.

    [Whereupon, at 10:44 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

                  Prepared Statement of Curtis L. Coy

    Good morning, Mr. Chairman, Ranking Member Takano, and other 
Members of the Subcommittee. I am pleased to join you this morning to 
discuss the implementation and performance of the Veterans Retraining 
Assistance Program (VRAP) as well as the collaboration between the 
Department of Veterans Affairs (VA) and Department of Labor (DOL) in 
our efforts to ensure successful transitions from training to 
employment.

Implementation of VRAP
    On November 11, 2011, the President signed into law the ``VOW to 
Hire Heroes Act of 2011'' (Public Law 112-56). Within this law, section 
211 established VRAP to assist unemployed Veterans, ages 35-60. VRAP 
provides up to 12 months of educational assistance to Veterans enrolled 
in a VA-approved program at a community college or technical school 
that will train the Veteran for employment in any one of 211 high-
demand career fields. To be eligible for participation, the Veteran 
must not have been enrolled in any Federal or state job-training 
program in the six months ending on the date of application, must have 
received other than a dishonorable discharge, must have no other VA 
education benefits available for use, and cannot be in receipt of 
compensation for a service-connected disability rated totally disabling 
by reason of unemployability. The law authorized VA to provide VRAP 
benefits to 45,000 participants who met eligibility requirements 
beginning in fiscal year (FY) 2012 and an additional 54,000 
participants beginning in FY 2013.
    In just under 6 months of the law being enacted, VA and DOL 
collaboratively leveraged existing IT systems to begin accepting 
applications on May 15, 2012, to meet the statutory program start date 
of July 1, 2012. VA received over 45,000 applications in the first 4 
months the application was available. As of August 29, 2013, VA has 
received more than 136,000 VRAP applications and issued over 119,000 
certificates of eligibility to Veterans. VA has provided over $418 
million in program benefits directly to more than 63,000 Veterans. More 
than 30,000 VRAP participants are currently enrolled in school. VA 
continues to look for ways to increase the number of VRAP beneficiaries 
and has notified the Regional Processing Offices to continue accepting 
applications until 99,000 Veterans have enrolled in training or October 
1, 2013, whichever occurs first.

Partnership with DOL
    The 211 high-demand career fields eligible for training assistance 
under VRAP were identified by our partners at DOL. To date, the most 
popular areas of study under VRAP are: Computer support specialist; 
Substance abuse and behavioral disorder counselor; Business operations 
manager; General and operations manager; Heating, air conditioning, and 
refrigeration mechanic; Heavy and tractor-trailer truck driver; Cook; 
Medical assistant; Paralegal and legal assistant; and Registered nurse. 
These ten careers account for over 48 percent of all VRAP enrollees.
    VA entered into a memorandum of understanding with DOL, prior to 
the inception of VRAP, with the goal of ensuring Veterans have a smooth 
transition from training to employment. VA compiles a weekly report for 
DOL that indicates the location of VRAP applicants. VA and DOL are 
nearing completion of a new data transfer agreement with DOL to 
increase the level of data shared between the two Departments. VA is 
working with DOL to receive employment outcomes as it becomes 
available. We defer to DOL to discuss employment services offered to 
VRAP participants.

VRAP Outreach
    VA developed an aggressive outreach campaign to raise awareness 
about VRAP. VA produced and aired two radio public service 
announcements on more than 1,600 stations. VA also produced and aired 
two Internet and television advertisements on the following networks: 
CBS, ABC, Verizon, Comcast, the Pentagon Channel, Disney, and ESPN. 
These advertisements were geographically targeted to reach the 25 
counties or metropolitan areas with the highest unemployment. VA also 
created multiple print advertisements and worked with several 
periodicals to have advertisements published to include the Military 
Times and its service branch counterparts.
    To increase VA's Internet presence, VA created a VRAP Web site, 
which has had more than 3 million visits since its inception. The 
success of the VRAP Web site can be attributed to our Google Ad 
campaign that resulted in over 30,000 visits to the site as well as our 
direct e-mail notifications of the program sent to more than 800,000 
Veterans. Over 200,000 e-mails were read, and over 75,000 of those who 
read the e-mail visited our VRAP Web site. Additionally, VA continues 
to discuss the VRAP program using our numerous social media presences.
    VA collaborated with DOL and the Department of Defense to ensure 
VRAP was included in the newly revised Transition Assistance Program 
(TAP). The new TAP provides Servicemembers with information on VRAP, so 
they are aware of the program and its benefits. VA has also worked with 
Veterans Service Organizations, such as the American Legion and 
Veterans of Foreign Wars, to train their national staff on VRAP and to 
provide information to them for dissemination at their national, 
regional, and local conferences, as well as for inclusion in their 
national membership publications. VA created postcards, posters, and 
pamphlets for distribution at national, regional, and local events such 
as job fairs. VA coordinated with several nationwide retailers to have 
VRAP flyers distributed to their customers during Veterans Day 2012. In 
addition, VA sent e-mails to over 1,000 community colleges and trade 
schools to publicize the program.
    VA is not only focused on contacting potential VRAP applicants but 
is also making significant efforts to reach those Veterans who received 
a certificate of eligibility and have not yet enrolled in school. We 
currently have over 75 e-mail distribution lists containing over 3,000 
e-mail contacts and continue to actively spread the word about the VRAP 
opportunity.

VRAP Success Stories
    VRAP has proven to be a valuable program to Veterans who are 
eligible to take advantage of its benefits. Eligible Veterans have been 
able to turn negative personal circumstances into accomplishments by 
pursuing education opportunities through VRAP. One particular Veteran, 
John Luque, had completed 4 years of active duty in the Navy before 
leaving the service and starting a career in real estate. 
Unfortunately, once the real estate market crashed, his projects 
dropped overnight, and John became unemployed and homeless. John then 
moved to Utah and received assistance from the Utah Department of Work 
Force Services who recommended that he go to college. After initially 
thinking that he was not qualified to be a ``student,'' John took a 
placement test and was able to successfully enroll at Salt Lake 
Community College. Working with the VA's VetSuccess on Campus Counselor 
at the school, John applied for VRAP benefits and has now almost 
completed his associate's degree in business. VRAP has afforded John 
the opportunity to achieve his goals of opening a non-profit 
organization that provides emergency housing for homeless Veterans and 
becoming a Veteran community organizer. VA has a full video describing 
John's story on the VA YouTube Channel.
    Richmond Community College posted an article on its Web site on May 
30, 2013, about another Veteran who has excelled in school using VRAP. 
The Veteran has made the Dean's List and was recently awarded a 
scholarship from the Air-Conditioning, Heating, and Refrigeration 
Institute to assist with the costs of his program's second year. VA 
recognizes the success that Veterans can achieve by utilizing VRAP and 
supports pending legislation to extend the program to additional 
Veterans.
    Mr. Chairman, this concludes my statement. I welcome any questions 
you, or the other members of the Subcommittee, may have for me.

                                 <F-dash>
                 Prepared Statement of Hon. Keith Kelly

                              Introduction

    Good Morning Chairman Flores, Ranking Member Takano and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to testify on behalf of the Department of Labor (DOL or the 
Department) regarding the Veterans' Retraining Assistance Program 
(VRAP) and the Homeless Veterans Reintegration Program (HVRP). I 
commend you all for your tireless efforts to ensure that America 
fulfills her obligations to our returning service members, veterans, 
and their families.
    President Obama, Secretary of Labor Perez and I are committed to 
serving these brave men and women as well as they have served us by 
ensuring they have the opportunities, training, and support they have 
earned to succeed in the civilian workforce. The Department will 
continue to work with Members of Congress to provide our returning 
servicemembers, veterans, and their families with the critical 
resources and expertise needed to prepare them to obtain meaningful 
careers, maximize their employment opportunities, and protect their 
employment rights.
      Implementing Veterans' Retraining Assistance Program (VRAP)


    Section 211 of the ``VOW to Hire Heroes Act of 2011'' (Public Law 
112-56) established VRAP, an important program that provides retraining 
assistance that enables unemployed veterans aged 35 to 60 to pursue an 
associate degree or certificate in a high-demand occupation. VRAP 
presents a valuable opportunity for thousands of unemployed veterans to 
develop in-demand skills necessary to enter new career-pathways. The 
Department is committed to the success of this program and has been 
working diligently with the Department of Veterans Affairs (VA) to 
carry out the VRAP provisions since the VOW Act was enacted in November 
of 2011.
    DOL has assisted in the administration of VRAP by, among other 
things, conducting outreach to veterans, developing guidance for the 
workforce investment system, identifying high-demand occupations, and 
determining applicants' initial eligibility based on age, employment 
status, and previous participation in other job training programs. In 
addition, the Department works to support veterans before, during, and 
following their participation in VRAP with employment services and 
assistance, such as assisted job search, resume development, and 
interviewing skills. The Department takes these responsibilities 
seriously and has been working diligently to ensure the success of the 
program.
    For example, the Department, in concert with our colleagues at VA, 
has been active in promoting the awareness of the VRAP program both at 
the national level and at the grass roots level through the nation-wide 
network of approximately 2,600 American Job Centers (AJCs), Disabled 
Veterans' Outreach Program (DVOP) specialists and Local Veterans' 
Employment Representative (LVER) staff, and other workforce system 
stakeholders. The Department issued guidance, technical assistance, and 
information to state and local workforce investment systems strongly 
encouraging them to refer eligible veterans to the program and 
requiring them to provide participants with employment assistance after 
completing or leaving the program. This outreach effort has contributed 
to the enrollment of over 63,000 veterans in training for ``high-
demand'' occupations. Additionally, in collaboration with VA, and to 
help support the full use of benefits by eligible applicants, the 
Department has sent three rounds of emails to individuals who were 
accepted into VRAP, but who have yet to enroll.
    In May 2012, DOL issued formal announcements providing the 
workforce investment system, including DVOPS and LVERs, with general 
information on the VRAP (Training and Employment Notice 43-11 \1\ and 
Veterans Program Letter 7-12 \2\) and formal policy guidance, updated 
last month, on providing employment assistance to VRAP participants 
after they exit the program (Training and Employment Guidance Letter 8-
12 \3\) in October 2012. In addition, upon participants' acceptance 
into the VRAP program, the Department sends them a welcome e-mail 
providing information about the network of AJCs, including an online 
tool to locate AJCs in a selected area. This welcome e-mail further 
explains that veterans are entitled to priority of service within the 
AJC network and encourages veterans to reach out to their local AJCs 
while still in training to begin job search activities. When VA 
notifies the Department that an individual has exited VRAP, the 
Department sends a second e-mail reminding the veteran of the AJC 
network and online resources. Following this second e-mail, the 
Department provides each state workforce agency with the contact 
information of each VRAP participant, so that the agency can offer them 
employment assistance and report the results of their outreach efforts 
to the Department.
---------------------------------------------------------------------------
    \1\ http://wdr.doleta.gov/directives/attach/TEN/ten--43--11.pdf
    \2\ http://www.dol.gov/vets/VPLS/VPLs/VPL%2007-12.pdf
    \3\ http://wdr.doleta.gov/directives/attach/TEGL/TEGL--8--12.pdf
---------------------------------------------------------------------------
    DOL's responsibilities under VRAP have required, among other 
things, modifications to current reporting systems, approval of new 
data collections, and development of processes and data management 
tools to ensure states and local areas can offer employment assistance 
to VRAP participants as they enter and exit the program, offer 
employment services, and track their employment outcomes. For instance, 
to capture data for VRAP participants, the Department created an 
entirely new reporting system specific to outreach activities and 
altered its existing reporting systems to capture employment outcomes. 
In the October 2012 guidance, as updated, the Department provided 
information to the state and local workforce investment system on how 
to collect and submit this data. For each VRAP participant, states are 
now responsible for collecting data on whether the individual received 
assistance, was contacted and already found employment, was contacted 
and did not wish to receive assistance, or was non-responsive to the 
outreach of employment assistance. The first report accounting for all 
outreach to VRAP participants from program inception through September 
30, 2013, is due to the Department by November 15, 2013. Successive 
reports are due within 45 days of the end of each quarter. The 
Department has been working directly with its state contacts to ensure 
outreach is being conducted and will provide additional assistance and 
monitoring as formal outreach reporting begins later this fall.
    Moreover, DOL is leveraging the core employment services provided 
under the Wagner-Peyser Act to track the employment outcomes of VRAP 
participants who receive employment assistance from AJC staff. 
Specifically, the Department is making modifications to its Labor 
Exchange Reporting System (LERS), currently used by several DOL 
programs, to collect information about services provided to and 
employment outcomes of VRAP participants. Only participants who accept 
the Department's offer for employment assistance and enroll at an AJC 
are included in this reporting.
    LERS outcomes include three measures used across employment and 
training programs serving adult populations, commonly referred to as 
the Common Measures, to gauge program success. These are as follows: 
Entered Employment Rate; Employment Retention Rate; and Average 
Earnings. The Common Measures are captured using state wage records and 
are reported to the Department within 45-days of the end of each 
quarter. The capture of outcomes is automatically initiated after a 
participant has gone 90 days or more without receiving an employment or 
training service.
    As described earlier, the Department has updated the standard state 
performance reporting systems to provide employment outcome information 
for those VRAP participants who receive services from AJC staff. In 
addition, DOL has been working with VA to develop methods for more 
comprehensive reporting of performance outcomes for all VRAP 
participants. This broader VRAP reporting has posed some challenges to 
the public workforce investment system, comprised of AJCs, state 
workforce agencies, and various partner organizations, which is by 
design decentralized and locally-driven. The Department has had to 
reengineer current data-reporting systems and reverse reporting 
processes to allow an exchange of information between the Department 
and the states. This task has required both a memorandum of agreement 
and the development of an interagency data-transfer agreement between 
the Department and VA. The data transfer agreement between the 
Department and VA is currently being finalized and will increase the 
Department's access to VRAP participant data. Additionally, the 
Department is beginning work with the 54 states and territories to 
develop data-transfer agreements that will further facilitate the 
dissemination of VRAP participants' contact information and give states 
the option to receive participants' Social Security numbers in addition 
to the contact information they are already receiving. The Department 
has also sought and received approval for a new data collection 
specific to the workforce investment system's outreach efforts. These 
processes, which sometimes take years to complete, have been carried 
out in a matter of months.
    In addition, some states have reported to the Department challenges 
in maintaining their performance data reporting, both in terms of 
limited physical computer systems and technical staff. The Department 
has responded by providing extensive technical assistance in the form 
of webinars, guidance documents, tutorials, and a dedicated e-mail 
helpline for inquiries. The Department will continue to work with the 
states and others to ensure the success of VRAP.
Homeless Veterans Reintegration Program (HVRP)
    Another important program aimed at providing training and 
employment services to veterans is the Homeless Veterans Reintegration 
Program (HVRP). The HVRP provides employment-focused and supportive 
services to assist homeless veterans attain meaningful civilian 
employment and to stimulate the development of effective service 
delivery systems that address the complex problems facing homeless 
veterans. The HVRP is one of the only nationwide Federal programs that 
exclusively focuses on helping homeless veterans to reintegrate into 
the workforce.
    HVRP funds are awarded to eligible entities through a competitive 
grant process outlined in the annual Solicitation for Grant 
Applications. Eligible entities in PY 2013 included: State and local 
Workforce Investment Boards, Native American tribal organizations, for-
profit/commercial entities, public agencies, and non-profits, including 
community-based organizations. Grantees provide an array of services to 
homeless veterans through a holistic case management approach, which 
includes critical linkages to a variety of support services available 
in local communities. Successful grant applicants must specifically 
describe how their outreach to homeless veterans will build an 
effective level of collaboration with other entities, such as the 
Department of Veteran Affairs, Grant and Per Diem (GPD) grantees, 
Housing and Urban Development and Veterans' Affairs Supportive Housing 
(HUD-VASH) Supportive Services for Veteran Families (SSVF) grantees, 
Health and Human Services (HHS) grantees, and Department of Veterans' 
Affairs Homeless Veteran Supported Employment Program (HVSEP).
    HVRP operates on the principle that when homeless veterans attain 
meaningful and sustainable employment, they are on a path to self-
sufficiency and their susceptibility to homelessness is diminished. 
HVRP is employment-focused; each participant receives customized 
employment and training services to address his or her specific 
barriers to employment. Services may include occupational, classroom, 
and on-the-job training, as well as job search, placement assistance, 
and post-placement follow-up services. HVRP's client-centric, ``hands-
on'' approach has successfully helped place thousands of previously-
homeless veterans, some of whom were chronically homeless, on a path to 
self-sufficiency.
    Within the umbrella of the HVRP, the Department funds two 
additional programs designed to address difficult-to-serve 
subpopulations of homeless Veterans, the Homeless Female Veterans and 
Veterans with Families Program (HFVVWF) and the Incarcerated Veterans' 
Transition Program (IVTP). HFVVWF is a competitive grant program that 
targets the subpopulation of homeless female veterans and veterans with 
families. The IVTP demonstration project grants currently authorized as 
a pilot program that sunsets on September 30, 2013, are designed to 
support incarcerated veterans who are at risk of homelessness by 
providing referral and career counseling services, job training, 
placement assistance and other benefits. Eligible IVTP participants 
include veterans who have been incarcerated and are within 18 months 
prior to release, or within six months after release from a 
correctional institution or facility.
    In addition, through HVRP the Department supports ``Stand Down'' 
events. A Stand Down is a local community event collaborated between 
local VA programs, other government agencies and community agencies 
serving the homeless, typically held over one to three days, where 
homeless veterans are provided a wide variety of services, which can 
include temporary shelter, meals, clothing, hygiene care, medical 
examinations, immunizations, state identification cards, veteran 
benefit counseling, training program information, employment services, 
and referral to other supportive services. Funding for employment 
services and incentives for homeless veteran participants, such as hot 
meals and climate appropriate clothing, is provided through non-
competitive grants awarded on a first-come, first-served basis until 
available funding is exhausted.

HVRP Grant Process
    Most HVRP grants are competitive in nature, with the Department 
soliciting bids by advertising opportunities on the Federal 
government's consolidated website: www.grants.gov. Once the bid period 
closes, the Department assembles grant review teams under the direction 
of the Department's Grant Officer. These teams review each bid and 
score it according to the selection criteria announced in the 
solicitation. The bids are then ranked based upon their objective 
scores, although the Department reserves the right to consider 
geographical dispersion and other factors when making the final 
selections. Once selections are made, Congressional notifications are 
completed and the Department issues a press release of the grant 
awardees. DOL staff then conducts post-award meetings to ensure all new 
grantees are fully informed of grant implementation and reporting 
requirements.
    All HVRP grant recipients are measured against four performance 
outcomes outlined in our policy guidance and if a grantee is unable to 
meet any of the four outcomes the grantee will be placed on a 
corrective action plan. The performance outcomes are: (1) Enrollments; 
(2) Placements; (3) Placement Rate; and (4) Cost per Placement. DOL 
staff works closely with grantees to help them succeed and to achieve 
all of the four performance outcomes. DVOP and LVER staff also support 
HVRP grantees by providing critical resources to help grantees achieve 
entered employment and retention goals through case management, direct 
employer contact, job development, and follow-up services.
    We in the Department are proud to report that from July 2011 to 
March 2013, the HVRP enrolled 16,412 participants and 10,744 (66 
percent) were placed into employment, earning an average wage of $10.74 
per hour. During this same period, over 65 percent of those who were 
placed into employment continued to be employed 6 months later. Despite 
the myriad challenges in moving unemployed homeless veterans into 
employment and housing, the Department believes the HVRP has shown 
encouraging results. The Department remains committed to the 
Administration's goal of ending veteran homelessness by 2015 and looks 
forward to working with the Committee to ensure the continued success 
of the program.

Conclusion
    In conclusion, the VRAP and HVRP programs display our Nation's 
commitment to our servicemembers, veterans, and their families. The 
Department of Labor is dedicated to the success of these programs and 
will continue to work diligently to provide these brave men and women 
with the employment and training services they need and deserve. Mr. 
Chairman, Ranking Member Takano, and Members of the Subcommittee this 
concludes my statement. Thank you again for the opportunity to testify 
today. I am happy to answer any questions that you may have.

                                 <F-dash>
                       Statements For The Record
              THE NATIONAL COALITION OF HOMELESS VETERANS

    Chairman Bill Flores, Ranking Member Mark Takano, and distinguished 
members of the House Committee on Veterans' Affairs, Subcommittee on 
Economic Opportunity:

    The National Coalition for Homeless Veterans (NCHV) is honored to 
present this Statement for the Record for the legislative hearing on 
September 12, 2013. On behalf of the 2,100 community- and faith-based 
organizations NCHV represents, we thank you for your commitment to 
serving our nation's most vulnerable heroes.
    This written statement will focus on NCHV's longstanding support 
for the Homeless Veterans Reintegration Program (HVRP) - the only 
federal program specifically dedicated to helping homeless veterans 
prepare for and enter employment, and providing follow-up mentoring and 
counseling to help them remain employed.
    HVRP is one of the most important tools in our nation's toolkit to 
end homelessness among veterans by 2015. The program has been 
authorized by Congress at $50 million a year since 2005. Despite 
serving about 16,000 veterans with serious and often multiple barriers 
to employment each year, and its standing as one of the most successful 
programs in the Department of Labor portfolio, it has never received 
the full level of funding authorized by Congress. In FY 2013, HVRP was 
funded at $38.1 million.
    NCHV strongly supports a full annual appropriation of $50 million 
for HVRP to increase the number of homeless veterans served by the 
program. We also endorse reauthorizing HVRP through 2018, as proposed 
in H.R. 2150, the ``Homeless Veterans Reintegration Programs 
Reauthorization Act of 2013.''
    Finally, NCHV strongly supports the intent of Section 6 of H.R. 357 
- extending HVRP eligibility to veterans who are fast-tracked into 
permanent housing. When the original regulations for HVRP eligibility 
were drafted, there were no veteran-specific programs designed to 
quickly move homeless veterans from the streets into housing. Today, 
that is the prime objective of the Department of Veterans Affairs (VA) 
``Housing First'' policy.
    HVRP is particularly vital to veterans receiving vouchers under the 
HUD-VA Supportive Housing (HUD-VASH) program. Helping these formerly 
homeless veterans re-enter the workforce offers the greatest hope they 
will become progressively less dependent on government assistance as 
they advance to independent living in permanent housing.
Description of Program
    HVRP is administered through the Department of Labor-Veterans 
Employment and Training Service (DOL-VETS). VETS administers 
competitive grants to several types of community partners, including 
state and local government agencies, private service providers, and 
faith- and community-based organizations. Organizations must reapply 
for funding every three years, and must meet or exceed their program 
goals to remain competitive.
    Organizations awarded HVRP grants provide their homeless veteran 
clients with:

    <bullet>  Job training and professional development services
    <bullet>  Career counseling, and resume preparation
    <bullet>  Job search and placement assistance
    <bullet>  Follow-up services to ensure job retention
    <bullet>  Vital supports like clothing, referrals to housing 
resources, health and substance abuse treatment services, and 
transportation assistance

    Roughly 16,000 veterans each year benefit from the services that 
HVRP provides. In recent years those services have been increasingly 
utilized by younger homeless veterans. The returning soldiers, sailors, 
Marines, and airmen who served in Iraq and Afghanistan (OEF/OIF era) 
face unemployment rates of 10% as of August 2013. Many of these out-of-
work veterans fall into homelessness - 12,700 OEF/OIF veterans were 
homeless at some point during 2010.
    HVRP is the most effective program available to address homeless 
veteran's financial issues - by helping them become gainfully employed. 
With relatively small grants to already-existing community service 
delivery systems, HVRP capitalizes on the expertise and infrastructure 
of its 143 community-based partner organizations.
    Despite the breadth of services offered by HVRP, they currently can 
only be accessed by veterans meeting the definition of ``homeless'' in 
the McKinney-Vento Homeless Assistance Act. A veteran who is housed 
through the HUD-VASH Program does not meet that definition. Placement 
of chronically homeless and extreme low-income veterans in permanent 
housing with a HUD-VASH voucher is a priority under the new VA policy 
of ``Housing First.'' This policy places a homeless veteran as soon as 
possible into stable, safe housing with intense case management. Though 
this is a sound and results-proven policy, the current rules prevent 
veterans who are placed in HUD-VASH housing quickly from receiving the 
benefits of HVRP.
    As a nation we are committed to ending homelessness among veterans 
by 2015. Though progress is being made to reach that goal, a fully 
funded and properly applied HVRP is a critical, strategic component of 
the campaign.

Unique Aspects of HVRP
    HVRP is the nation's only employment program wholly dedicated to 
serving homeless veterans. Despite the multiple barriers to re-
employment most homeless veterans face, the HVRP program requires its 
grantees to successfully place clients in jobs, and to provide follow-
up services to help them remain employed for nearly a year. HVRP is so 
successful because it does not just fund employment services; it 
guarantees job placement and job retention supports.
    Through HVRP, these men and women are given an opportunity to build 
the skills necessary to enter the workforce. The program provides wrap-
around supports including residential stability, health services, and 
counseling. Furthermore, HVRP providers do not abandon their veterans 
when they become employed; regulations stipulate they must provide 
follow-up services for 270 days after the veteran returns to work.
    At an average cost of $3,295 per placement, HVRP clients can expect 
to find a job with an average wage of $10.48 per hour. The job 
placement rate of HVRP grantees is, in many cases, higher than that of 
veteran employment programs overall.

Recommendations
    H.R. 2150 would re-authorize HVRP at its current level of $50 
million annually through 2018. The long-term nature of veteran 
enrollment in HVRP (often almost two years) means that year-to-year 
authorizations are hard on the community partners administering the 
services. For each veteran helped, a two-year commitment must be made 
to a program of support, training and post-employment follow-up.
    The Department of Labor has stated that historically the low 
funding levels have not impacted the quality of services but have 
limited the number of veterans served by the program. Increasing the 
funding would undoubtedly increase program capacity and reach more of 
those who need these services. The most recent estimates place the 
number of homeless veterans above 62,000. Although this represents a 
17% drop since 2009, the fact remains that tens of thousands of 
homeless veterans still need help to get off of the streets.
    An interesting footnote to the economic impact of HVRP is that the 
government expense of providing these services - average job placement 
cost of $3,295, average hourly wage of $10.48 - returns about 150% of 
the program cost in federal and state tax revenue during the first year 
of employment.
    ``Housing First'' paradigms place the emphasis on providing stable, 
safe, and permanent housing to homeless veterans as soon as possible in 
order to properly support their recovery from homelessness. These data-
driven, results-proven paradigms should not exclude homeless veteran 
clients from jobs training and employment assistance. The recovery and 
reintegration of homeless veterans requires stable, safe, and permanent 
housing, as well as job training and placement assistance.
    Ensuring a stable income - through employment opportunities or 
earned veterans' benefits - is the surest way to prevent recurring 
homelessness and to end chronic homelessness among veterans. ``Housing 
First'' was never meant to mean, and never should mean, ``Housing 
Only.'' NCHV supports extending eligibility for the HVRP program to 
veterans fast-tracked into permanent housing in the HUD-VASH program.
    Thank you for the opportunity to submit this Statement for the 
Record. Thank you also for your commitment to ending veteran 
homelessness. NCHV is confident you will continue your unwavering 
support of veterans in crisis in the future, and we look forward to 
working with this subcommittee for the duration of the Five Year Plan 
to End Veteran Homelessness, and beyond.
    Thank you for your service,

    John Driscoll
    President and CEO

    Joshua Stewart
    Policy and Communications Assistant

    National Coalition for Homeless Veterans
    333 \1/2\ Pennsylvania Ave. SE
    Washington, DC 20003
    202.546.1969

                                 <F-dash>
                           EASTER SEALS INC.
    Chairman Flores, Ranking Member Takano and members of this 
Subcommittee, Easter Seals thanks you for holding this hearing to 
review the performance of the Homeless Veterans Reintegration Program 
(HVRP). Easter Seals is a national non-profit organization that 
provides essential community-based services and supports to veterans, 
military families, individuals with disabilities and others. Since 
World War II, Easter Seals has helped to address the unmet needs of 
U.S. soldiers returning home with new service-connected disabilities. 
Through our national network of 73 community-based affiliates, Easter 
Seals assists veterans and military families through our medical 
rehabilitation, caregiving, employment, adult day, therapeutic 
recreation, reintegration and other quality programs. Easter Seals 
regularly fills the gap between the services veterans and military 
families need and the services currently available through government 
or other entities.
    Easter Seals appreciates the Subcommittee's focus on the employment 
and reintegration needs of America's veterans by examining HVRP and the 
Veterans Retraining Assistance Program. The men and women who have 
served our country must have full access to the reintegration supports 
and services they need to help in their transition to civilian life. 
Easter Seals partners regularly with federal, state and private 
entities to help provide reintegration and other services and supports 
to veterans and military families. For example, Easter Seals trains 
caregivers of seriously injured Post-9/11 veterans for the U.S. 
Department of Veterans' Affairs' (VA) National Veteran Caregiver 
Training Program. Easter Seals New Hampshire works with the New 
Hampshire National Guard and others to provide case management, 
counseling, housing support, employment and other services to help 
military families during their service to our nation. And through our 
partnership with the Dixon Center for Military and Veterans Community 
Services, Easter Seals has teamed with businesses and community 
foundations to launch veterans' employment, financial planning and 
reintegration programs in Indiana, Minnesota, New Jersey, New York, 
Ohio and Oregon. Easter Seals believes no veteran or military family 
should suffer from a lack of access to or understanding of how to 
navigate reintegration services.
    Easter Seals fully supports the Department of Labor's (DOL) 
Homeless Veterans Reintegration Program. HVRP is the only federally-
funded program focused exclusively on the employment of veterans who 
are homeless. Congress created HVRP recognizing the critical role 
employment plays in recovery and understanding the unique, 
individualized needs of each veteran who is homeless or at-risk of 
becoming homeless. The program provides job training, counseling, and 
placement services to expedite the reintegration of homeless veterans 
into the labor force. More than 16,000 homeless veterans or veterans 
who were at-risk of homelessness received job training and employment 
assistance through HVRP in its last recorded program year. \1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Labor Fiscal Year 2014 Congressional Budget 
Justification
---------------------------------------------------------------------------
    One of the individuals helped recently through HVRP was Donald, a 
48-year old veteran from Oregon. He enrolled in Easter Seals Oregon's 
Homeless Veterans Reintegration Program earlier this summer looking for 
help in finding a job. The former Oregon Air National Guard Member had 
been out of work since 2008. With no steady income, Donald found 
himself homeless, broke and socially isolated. He was determined to get 
back into the workforce, but didn't think he had much to offer an 
employer. Donald simply identified ``general employment'' as his goal 
when he entered the program. It wasn't until an in-person meeting with 
his Easter Seals HVRP employment specialist that Donald talked about 
his time in the military as an aircraft fuel systems mechanic helper 
and his 14 years of experience as a forklift operator. The Easter Seals 
employment specialist recognized the many natural talents Donald had 
and the work skills he developed through past civilian and military 
jobs. Donald's immediate goal was to get back into the workforce as 
quickly as possible. Donald dreamed of visiting all 48 states in the 
continental United States and, together with his employment specialist, 
identified a career as a long-haul truck driver as a viable, in-demand 
option. His long-term goal was to earn a Class A Commercial Driver's 
License (CDL). Easter Seals Oregon immediately connected Donald to 
transitional housing at a nearby Salvation Army housing complex and 
provided him with a monthly bus pass so he could easily attend meetings 
and, eventually, jobs interviews. Together with his employment 
specialist, Donald updated his resume, linked to the local VA center 
for other services, and registered with several staffing agencies in 
the region. Just a few short weeks after entering Easter Seals' 
Homeless Veterans Reintegration Program, Donald was hired by a local 
manufacturing company in a permanent job as a forklift operator. He 
works full-time and earns $10 per hour, with full benefits. Donald 
cited ``networking skills, online job search assistance, resume update, 
housing stabilization, reliable transportation, and encouragement'' as 
services that Easter Seals Oregon-HVRP provided that helped him get 
this job. Donald is also pursuing his long-term employment goal. Donald 
is applying to a local truck driving school that has an excellent track 
record in educating and finding jobs in the field for past Easter Seals 
HVRP clients. With the help of HVRP and the personalized attention of 
his Easter Seals employment specialist, Donald is working full-time, is 
in stable housing and is well on his way to achieving his long term 
career goal.
    Donald is just one of thousands of homeless veterans across the 
country being served through HVRP. The program works, in large part, 
due to the holistic, person-centered care coordination model that 
Easter Seals has used for several decades in helping individuals with 
disabilities achieve their dreams. Easter Seals commends Congress for 
creating a program that recognizes that veterans face multiple barriers 
to securing a job and maintaining stable housing. The HVRP model works 
directly with each veteran to develop an individualized employment 
development plan and to connect the veteran to training, employment 
services and other community supports to help achieve their goal. The 
Department of Labor noted in its FY 2014 budget justification that its 
traditional job training and employment programs are ``often not well 
suited on their own to assist homeless veterans'' and described how 
``helping homeless veterans requires a substantial amount of outreach 
and job development with employers as well as the coordination of 
individually tailored support services and training interventions.'' 
HVRP providers can help to pay for reasonable expenses or connect them 
to available community services that are required for the veteran to 
succeed in achieving his or her employment goal. In the case of Donald, 
Easter Seals Oregon provided several supportive services to help him 
achieve his employment goal including the purchase of a monthly bus 
card and the connections to the VA and the local transitional housing 
provider. Other supportive services examples include child care, health 
care, assistive technology, and counseling.
    Our nation has made tremendous progress in tackling the homeless 
problem among U.S. veterans. The U.S. Housing and Urban Development's 
(HUD) 2012 Point-in-Time Estimates of Homelessness noted that veterans' 
homelessness fell by 7.2 percent since January 2011 and by 17.2 percent 
since January 2009. HVRP and other programs developed and supported by 
Congress, including the Supported Services for Veterans Families (SSVF) 
Program, HUD-VA Supportive Housing Program, and Grant and Per Diem 
Program, have effectively provided the individualized support and 
assistance needed to reverse the trend of homelessness among veterans. 
While homelessness is declining, challenges still remain, particularly 
for women veterans and veterans of Operation Enduring Freedom (OEF) and 
Operation Iraqi Freedom (OIF). The VA's National Center on Homelessness 
among Veterans reported in its supplemental report to Congress \2\ that 
young OEF/OIF veterans and female veterans are at two times greater 
risk to become homeless than their non-veteran counterparts and three 
times at greater risk to live in poverty. The Department of Labor 
projected that it will serve 20,000 eligible veterans in FY 2014, with 
a particular focus on women veterans. Easter Seals affiliates in 
Indiana, Maryland, New York and Oregon have partnered with DOL to help 
accomplish this important goal. For example, Easter Seals Crossroads in 
Indianapolis will help to meet the urgent needs of 150 homeless 
veterans in the eight-county region around Indianapolis. Easter Seals 
New York will serve more than 100 homeless female veterans living in 
the New York metropolitan area through a new HVRP. However, new 
resources and improvements to the HVRP program are needed to help meet 
the needs of these veterans.
---------------------------------------------------------------------------
    \2\ VA National Center on Homelessness among Veterans, New Research 
on Homelessness among Veterans, 2011
---------------------------------------------------------------------------
    Based on Easter Seals' experience and our commitment to America's 
veterans, we respectfully urge Congress to strengthen the HVRP program 
and to increase our nation's effort to meet the reintegration needs of 
our veterans.

    1. Reauthorize the HVRP Program: The current HVRP authorization 
expires at the end of fiscal year 2013. Easter Seals endorsed the 
Homeless Veterans' Reintegration Program Reauthorization Act of 2013 
(H.R. 2150), which would extend HVRP through FY 2018. Easter Seals 
commends this Subcommittee for favorably reporting the bill to the full 
House Veterans' Affairs Committee and we urge Congress to complete 
action on this critical legislation.

    2. Fully Fund HVRP: HVRP is currently authorized at $50 million 
annually, the save level proposed in the Homeless Veterans' 
Reintegration Programs Reauthorization Act of 2013. However, the 
program has only been funded at $38 million the last two fiscal years. 
While we understand the difficult fiscal environment, Easter Seals 
recommends that Congress fully funds HVRP at its authorized level of 
$50 million to better meet the needs of homeless veterans and veterans 
who are at-risk for homelessness.

    3. Expand Veteran Eligibility of HVRP: Easter Seals supports H.R. 
1305, which would expand eligibility to HVRP to also include veterans 
who are participating in and receiving rental assistance through the 
VA's supported housing program (HUD-VASH) and veterans who are 
transitioning from being incarcerated. These vulnerable veterans should 
have access to HVRP. Easter Seals is pleased that the Subcommittee took 
the first step toward helping these vulnerable veterans by reporting 
the bill favorably to the full VA Committee.

    4. Create Waiver To Make Housing An Allowable Expense: The goal of 
HVRP is to leverage existing community housing resources by connecting 
eligible veterans to available transitional and affordable housing 
programs. Homeless veterans in some communities struggle to achieve 
their housing and employment objectives because of the lack of 
transitional or affordable housing in their area. The lengthy waiting 
lists and the prohibition on using HVRP funds to pay for rent or 
housing deposits delays and, in some cases, prevents a veteran's 
ability to meet his or her goal. Easter Seals requests that Congress 
and DOL add an allowable expenses waiver to allow, on a case-by-case 
basis, a grantee to pay the first month's rent or a deposit for an 
apartment as part of a veteran's employment development plan.

    5. Create HVRP-Like Program To Address Reintegration Needs: The 
individualized, holistic care coordination model used in HVRP is the 
root of the success of HVRP. The model is a key component of the VA's 
Supported Services for Veterans Families (SSVF) program that is also 
aimed at preventing veterans' homelessness. The community-based, 
holistic approach ensures veterans and their families have access to a 
continuum of care that is local, timely and effective. Easter Seals 
recommends that Congress create a pilot program at the VA that uses 
this holistic model to address the reintegration needs of veterans in 
need. Programs like HVRP and SSVF are targeted at a population when 
they are most at-risk. Providing veterans with these supportive 
services and access to care coordination earlier in the process will 
more quickly and effectively respond before the problems turn to 
crisis.

    Easter Seals commends Congress and this Subcommittee for its 
commitment to helping to end veterans' homelessness. The Homeless 
Veterans Reintegration Program at the Department of Labor is one of the 
most effective tools in helping homeless veterans and veterans who are 
at-risk of homelessness to get back on their feet and contributing to 
their communities. Thank you for your support of HVRP and your interest 
in strengthening the program. Easter Seals looks forward to working 
with Congress to help America's veterans and military families with the 
services and supports they need to succeed in their communities.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
